No.______
IN THE SUPREME COURT OF THE UNITED STATES
JOHN PATERNO,
Petitioner,

– against –

CITY OF NEW YORK, NEW YORK CITY DEPARTMENT OF TRANSPORTATION
and POLLY TROTTENBERG,
Respondents.
PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear that on this date, September 30, 2019, as required
by Supreme Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by giving three true copies of same,
addressed to each individual respectively, and enclosed in a properly addressed
wrapper, to Federal Express for Overnight Delivery, postage prepaid.
The names and addresses of those served are as follows:
Counsel for Respondents:
ZACHARY W.CARTER
CORPORATION COUNSEL OF THE CITY OF NEW YORK
BARBARA JEANE GRAVES-POLLER
RICHARD DEARING
JANE L. GORDON
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, New York 10007
(212) 356-2275
bgraves@law.nyc.gov
That on the same date as above, I sent to this Court forty copies of the within
PETITION FOR A WRIT OF CERTIORARI via Federal Express Overnight Delivery,
postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me this
30th day of September, 2019.

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

36629

